Bob F. Wright
James Parkerson Roy
Thomas R. Edwards*
James H. Domengeaux
Victor J. Versaggi
Elwood C. Stevens, Jr.*
John Parkerson Roy
Andrew J. Quackenbos
Kaliste Joseph Saloom, IV
* A Professional Law Corporation
Also Admitted in Texas

By Electronic Filing
and By First-Class Mail

James Domengeaux (1907-1988)
Judge Jerome E. Domengeaux (19191999)

WrightRoy.com
April 19, 2021

556 Jefferson Street
Jefferson Towers, Suite 500
Post Office Box 3668
Lafayette, Louisiana 70502-3668
Fax (337) 232-8213
Telephone (337) 233-3033

www.WrightRoy.com

The Honorable Scott S. Harris
Clerk of the Court
United States Supreme Court
One First Street, N.E.
Washington, D.C. 20543
Attn: Danny Bickell, Esq.
Re:

Dantzler, Inc., et al. v. S2 Services Puerto Rico, LLC, et al.,
No. 20-1061

Dear Mr. Harris:
Pursuant to the Court’s March 19, 2020 order, petitioners respectfully
request that the Court delay distribution of the petition for a writ of certiorari
(and other briefs) until April 27, 2021, for consideration at the Court’s conference
on May 13, 2021. The petition for a writ of certiorari was filed on January 29, 2021,
and placed on the Court’s docket on February 3, 2021. After the Court granted one
30-day extension, respondents’ brief in opposition was filed on April 2, 2021.
Pursuant to Supreme Court Rule 15.5, absent the requested delay, the petition,
brief in opposition, and reply brief would be distributed on April 21, 2021, also for
consideration at the May 13 conference. Accordingly, delay in distribution to April
27 would not delay the Court’s consideration of the petition.
Counsel for petitioners seeks a 6-day extension due to the restrictions
currently being experienced because of COVID-19 combined with the press of
other litigation deadlines, unanticipated but urgent developments in other matters
and the passing of founding partner, Bob F. Wright (1932-2021).
Counsel for respondents have been contacted and do not object to this
extension.

Hon. Scott S. Harris
April 19, 2021
Page 2
For these reasons, petitioners request that the Court delay distribution of the
petition for a writ of certiorari (and other briefs) until April 27, 2021.
If you have any questions, please call me at (337) 233-3033.
Sincerely,

Elwood C. Stevens, Jr.
Counsel of Record for Petitioners
cc:

Counsel for Respondents

